No.

20-222

In the
Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS,

v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
RESPONDENTS.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
BRIEF OF FINANCIAL ECONOMISTS AS AMICI
CURIAE IN SUPPORT OF PETITIONERS
MICHAEL C. KEATS

Counsel of Record

JUSTIN J. SANTOLLI
JASEN T. FEARS
FRIED, FRANK, HARRIS,
SHRIVER & JACOBSON LLP

One New York Plaza
New York, NY 10004
(212) 859-8000
michael.keats@friedfrank.com

LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

TABLE OF CONTENTS
Page
TABLE OF CONTENTS ........................................................................................... i
TABLE OF AUTHORITIES .................................................................................... ii
STATEMENT OF INTEREST OF AMICI CURIAE ................................................1
INTRODUCTION AND SUMMARY OF ARGUMENT ........................................5
ARGUMENT .............................................................................................................9
I. Proper Price Impact Analysis Includes an Assessment of the Nature of the
Alleged Misstatements ...............................................................................................9
II. From an Economic Perspective, a Subsequent Drop in Stock Price May Not
Demonstrate Price Impact of An Alleged Misrepresentation ..................................12
CONCLUSION ........................................................................................................16

i

TABLE OF AUTHORITIES
Cases

Page(s)

Ark. Teachers Ret. Sys. v. Goldman Sachs Grp., Inc.,
879 F.3d 474 (2d Cir. 2018) ...................................................................5, 6, 7, 12
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) (“Halliburton I”) ................................................................. 8
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) (“Halliburton II”) .......................................................passim
Other Authorities
Zvi Bodie, et al., Investments (10th ed. 2014) ......................................................... 11
Campbell, J., Lo, A., and MacKinlay, A., The Econometrics of
Financial Markets, Princeton University Press, 1997 ........................................ 14
Eugene F. Fama, Efficient Capital Markets: A Review of Theory and
Empirical Work, 25 J. of Fin. 383 (1970). .......................................................... 11
Fama, E. F., Fisher L., Jensen C. M., and Roll R., The Adjustment of
Stock Prices to New Information ........................................................................ 14
Jill E. Fisch, The Trouble with Basic: Price Distortion After
Halliburton, 90 Wash. U. L. Rev. 895 (2013). ................................................... 10

ii

STATEMENT OF INTEREST OF AMICI CURIAE
Amici curiae are individuals who teach, research, and write about financial
economics. The amici have also served as testifying and consulting experts in
connection with economic issues, including significant experience with securities
class action cases. 1 Amici have an interest in ensuring that the securities laws are
interpreted to accurately reflect current economic scholarship. Amici also have an
interest in ensuring that the economic principles used in securities class actions are
correctly identified and applied by the federal judiciary to reflect the economically
appropriate approach for the protection of public companies and their investors alike.
Amici are able to offer a unique perspective on the evaluation of price impact from
an economic perspective that can aid the Court in resolving important issues
presented by the Petition. Some of the amici previously sought and were granted
leave to file amicus briefs before the United States Court of Appeals for the Second
Circuit. Although each individual amicus may not endorse every statement made
herein, this brief reflects the consensus of the amici that rigorous economic analysis

Pursuant to Rule 37.6, amici affirm that no counsel for any party authorized
this brief in whole or in part, and that no person other than amici and their counsel
made a monetary contribution to its preparation or submission. Counsel of record
for all parties received notice at least 10 days prior to the due date of amici’s
intention to file this brief. All parties have consented to the filing of this brief.
1

1

that considers the nature of the challenged statements is required to determine
whether a set of challenged statements caused price impact.
In alphabetical order, the amici are: 2
• Sanjai Bhagat is Provost Professor of Finance at the Leeds School of
Business at the University of Colorado Boulder.
• David J. Denis is the Roger S. Ahlbrandt, Senior Chair in Finance and
Professor of Business Administration at the Joseph M. Katz Graduate
School of Business at the University of Pittsburgh.
• Ronald J. Gilson is the Marc and Eva Stern Professor of Law and
Business at Columbia University, School of Law and the Charles J.
Meyers Professor of Law and Business, Emeritus at Stanford Law
School at Stanford University.
• Steven C. Mann is an Associate Professor of Finance at the M.J. Neeley
School of Business at Texas Christian University.
• John McConnell is the Burton D. Morgan Distinguished Chair of
Private Enterprise (in Finance) at the Krannert Graduate School of
Management at Purdue University.

Institutional affiliations are provided for identity purposes only. This
document does not purport to present the institutional views of any of the named
universities or entities.
2

2

• Gordon Phillips is the Laurence F. Whittemore Professor of Business
Administration and Faculty Director of the Center for Private Equity
and Venture Capital at the Tuck School of Business at Dartmouth
College.
• William L. Silber is a Senior Advisor at Cornerstone Research and the
former Marcus Nadler Professor of Finance and Economics at the Stern
School of Business at New York University.
• David C. Smith is the Virginia Bankers Association Professor of
Commerce at the University of Virginia and Associate Dean for Center
Development & Research at the McIntire School of Commerce at the
University of Virginia.
•

Chester S. Spatt is the Pamela R. and Kenneth B. Dunn Professor of
Finance at the Tepper School of Business at Carnegie Mellon
University.

• Mark Weinstein is the Emeritus Associate Professor of Finance and
Business Economics at the Marshall Business School at the University
of Southern California.
• Robert F. Whitelaw is the Vice Dean of the Undergraduate College and
the Edward C. Johnson 3d Professor of Entrepreneurial Finance at the
Leonard N. Stern School of Business at New York University.
3

• Jaime F. Zender is Professor of Finance and the Baughn Professor of
Finance at the Leeds School of Business at the University of Colorado
Boulder.

4

INTRODUCTION AND SUMMARY OF ARGUMENT
This case presents a compelling opportunity for the Court to intervene because
the Second Circuit’s decision prevents meaningful economic analysis of price
impact at the class certification stage, contrary to Supreme Court precedent holding
that defendants may defeat class certification of a securities class action “through
direct as well as indirect…evidence” that the alleged misstatements had “price
impact.” Halliburton Co. v. Erica P. John Fund, Inc., 573 U.S. 258, 283 (2014)
(“Halliburton II”).
Here, the Second Circuit’s decision excluded a critical component of that
evidence by holding that it is unnecessary to “consider the nature of the alleged
misstatements in assessing whether and ‘why the misrepresentations did not, in fact,
affect the market of [the] stock.’” Ark. Teacher Ret. Sys. v. Goldman Sachs Grp.,
Inc., 955 F.3d 254, 279 (2d. Cir. 2020) (Sullivan, J., dissenting) (“ATRS II”) (citation
omitted). Contrary to the Second Circuit’s exclusion of alleged misstatements as
price impact evidence, an analysis of the content of alleged misstatements is a key
part of an economic assessment of price impact. Focusing only on stock price
reactions on the alleged corrective disclosure dates can lead to incorrect conclusions
regarding price impact and thus result in class certification being granted in
securities class actions where the alleged misstatements actually had no price impact.

5

Halliburton II, 573 U.S. at 281-82 (“Price impact is...an essential precondition for
any Rule 10b-5 class action.”).
Focusing only on stock price reactions on alleged corrective disclosure dates
and ignoring the challenged statements themselves prevents a complete economic
analysis of price impact. Price movement following an alleged corrective disclosure
does not by itself prove that prices were distorted as a result of an alleged fraud.
Ignoring the challenged statements themselves when evaluating their price impact at
the class certification stage is at odds with economic theory and not defensible from
an economic perspective. 3 Judge Sullivan was correct when he observed, “I don’t
see how a reviewing court can ignore the alleged misrepresentations when assessing
price impact.” See ATRS II, 955 F.3d at 279 (Sullivan, J., dissenting).
Economic analysis, including an assessment of the alleged misstatements
themselves, is required to determine whether those statements actually affected a
company’s stock price, i.e., whether they had price impact. In this case, Judge
Sullivan noted that the approach adopted by the Second Circuit “strain[ed] to avoid
looking at the [challenged] statements themselves,” but this type of information and

Price impact matters at class certification because the “fundamental premise
[is that] an investor presumptively relies on a misrepresentation so long as it was
reflected in the market price at the time of his transaction… If it was not, then there
is no grounding for any contention that [the] investor[] indirectly relied on th[at]
misrepresentation[] through [his] reliance on the integrity of the market price.”
Halliburton II, 573 U.S. at 278 (internal quotations and citations omitted).
3

6

analysis is an important component of an economic analysis of price impact. ATRS
II, 955 F.3d at 279 (Sullivan, J., dissenting). In other words, the Second Circuit’s
approach ignores that the nature of the challenged statements is a key factor in an
economic analysis of price impact. From an economic perspective, analyzing the
nature of the challenged statements and whether they potentially contain value
relevant information is necessary when determining whether the statements actually
affected the stock price, which we understand to be the core inquiry in assessing
price impact. Hence, to assess price impact as described in Halliburton II, one
should consider the nature of the challenged statements.
Using only evidence of price movement after an alleged corrective disclosure
to establish price impact of the challenged statements is not defensible. In particular,
price impact cannot be assumed when a company has merely expressed general
business principles, as most public companies do, or if the statements did not cause
price changes when they were made. When generalized statements about business
principles are made, they may not be connected to any specific business activity and
may not be associated with an impact on expected future cash flows or the riskadjusted discount rate. 4 If that were the case, then those statements would have no
price impact, and so could not and would not impact stock price.

A stock price reflects the present value of discounted future cash flows. The
discount rate is a risk adjusted rate that reflects the firm’s systematic risk.
4

7

Accordingly, in a situation in which a company is alleged to have made only
generalized statements regarding business principles that were not met with any
stock price reaction when they were made, an economist should test whether such
statements had a price impact. One cannot look only at the stock price reactions on
the alleged corrective disclosure dates as the Second Circuit appears to have done,
as such price reactions can be a poor measure of the price impact of an alleged
misrepresentation. For example, the stock price may have declined on these dates
for many reasons, such as the filing of a regulatory enforcement action against a
company or the release of negative confounding information about the company.
Instead, rigorous economic analysis is required to determine whether a stock
price was affected by a particular statement. The Second Circuit’s decision is
contrary to the idea “‘that an investor presumptively relies on a misrepresentation so
long as it [that misrepresentation] was reflected in the market price at the time of his
transaction.’” Halliburton II, 573 U.S. at 278 (quoting Erica P. John Fund, Inc. v.
Halliburton Co., 563 U.S. 804, 813-14 (2011) (“Halliburton I”)). Testing the nature
of the challenged statements is often a key component of the economic analysis in
evaluating whether the alleged representation “affected the market price in the first
place,” as described in Halliburton II. See 573 U.S. at 278. This Court’s intervention
is necessary because the Second Circuit’s decision departed from current economic
theory and the economic theory underlining this Court’s prior decisions.
8

ARGUMENT
I.

Proper Price Impact Analysis Includes an Assessment of the
Nature of the Alleged Misstatements
An analysis of stock price changes is an important component of an economic

assessment of price impact, but it is not by itself sufficient to reach a conclusion
about price impact. It is a basic tenet of economic theory that not all types of publicly
disclosed statements affect stock prices. Assuming efficient markets, stock prices
reflect the present value of all current information about all expected future cash
flows, discounted at a rate reflecting the firm’s systematic risk. 5 If new, publicly
disclosed, information changes investors’ assessment of a firm’s expected cash
flows or its systematic risk, then that information will also affect the stock price.
The corollary to this is that some statements will not affect the stock price because
they do not affect either the firm’s current expected cash flows or perception of its
systematic risk.
To determine whether a statement had price impact, examining the price
reaction when the statement was made is a necessary but not sufficient part of the
analysis. Similarly, price movement following an alleged corrective disclosure is

Finance literature distinguishes among several versions of the efficient market
hypothesis. In this brief, we refer to the “semi-strong form” of efficiency, which
implies that all public information is reflected in a stock’s current market price and
that security prices adjust to new publicly available information so that it is
impossible to earn excess returns by trading on that information.
5

9

not sufficient to prove that prices were distorted in the first instance by allegedly
fraudulent statements. As an initial matter, price reaction when a challenged
statement was made and when an alleged corrective disclosure occurred, typically
take place months apart in time and reflect temporally distinct market reactions to
potentially different information See Jill E. Fisch, The Trouble with Basic: Price
Distortion After Halliburton, 90 Wash. U. L. Rev. 895, 922 (2013). A price reaction
to an alleged corrective disclosure could provide circumstantial evidence of price
impact, but there may be no causal relationship between the stock price distortion at
the time of the misstatement and the stock price decline at the time of the alleged
corrective disclosure.
Multiple factors may affect the price of a stock on the day of an alleged
corrective disclosure, such as other corporate disclosures or other confounding
information released contemporaneously with the alleged corrective disclosure. In
addition, intervening confounding market developments or uncertainty about
possible future developments may affect the price impact of the alleged corrective
disclosure.
An economic analysis of price impact cannot focus only on whether a
company’s stock price changes immediately following a given statement. Looking
only at the stock price changes following the statement could lead to incorrect
conclusions about price impact. For example, one could falsely conclude that a
10

statement had price impact if it did not affect the price but was released along with
other confounding information that caused a price change.

Therefore, a

determination of whether challenged statements had price impact involves more than
examining stock price changes: an economist should also examine the alleged
misstatements themselves.
An economist analyzing price impact should assess whether the alleged
misstatements would be expected to affect the company’s stock price. To do that,
an economist might consider whether the alleged misstatements contain the type of
information that affects stock prices. In an efficient market, stock prices are affected
only by value-relevant information. 6 As noted above, value-relevant information for
a publicly traded company is any information that would affect an investor’s
expectations about either the firm’s expected future cash flows or its systematic
risk. 7
From an economic perspective, it cannot be assumed without analysis that the
statements at issue convey information that investors would find value-relevant. For
example, we understand that the alleged misstatements in this case are general
statements about Goldman Sachs’ business principles and management of its

Eugene F. Fama, Efficient Capital Markets: A Review of Theory and
Empirical Work, 25 J. of Fin. 383, 415-416 (1970).
6

7

See, e.g., Zvi Bodie, et al., Investments 350-354, 609-612 (10th ed. 2014).
11

conflicts of interests. General statements of this type may not affect the present
value of a company’s cash flows and thus may not be value-relevant. Hence, an
economist should test whether these statements actually affected the stock price in
order to determine whether there was price impact. Assuming that there is price
impact without engaging in the economic analysis to determine whether the alleged
misstatements “affected the market price in the first place” is contrary to economic
theory and creates a substantial risk of securities class being certified where there
was no price impact. See Halliburton II, 573 U.S. at 278. This Court’s review is
needed to address these profound issues.
II.

From an Economic Perspective, a Subsequent Drop in Stock Price
May Not Demonstrate Price Impact of An Alleged
Misrepresentation
In this case, the Second Circuit held that “if…a disclosure caused a reduction

in a defendant’s share price, [one] can infer that the price was inflated by the amount
of the reduction.” ATRS II, 955 F.3d at 265-66. However, price movement
following an alleged corrective disclosure can be a poor measure of the price impact
of an alleged misrepresentation, particularly if the stock price did not change when
the misstatements were made. From an economic perspective one cannot simply
conclude that the stock price had been affected by challenged statements just because
a subsequent alleged corrective disclosure or event is associated with a decline in
stock price. Stock prices may decline on a particular day for many reasons, such as
12

the filing of a regulatory enforcement action against a company or the release of
negative confounding information about the company. Thus, the stock price decline
does not, in and of itself, imply that prior statements affected the stock price,
especially if those challenged statements are generalized statements about business
principles.

Hence, for the Second Circuit’s approach to be correct, several

conditions must be met. In order to determine whether those conditions are satisfied,
an economist should examine whether, when, and how information contained in a
challenged statement affected a company’s stock price. Examining the nature of the
statements at issue plays a critical role in that economic analysis.
First, there needs to be a direct connection between the alleged corrective
disclosures and the alleged misrepresentation that allegedly affected the stock price.
From an economic perspective, an economist should establish that the misstatements
have a direct connection with the alleged corrective disclosures in order to use the
price reaction following the alleged corrective disclosures as evidence of the alleged
misstatements’ price impact. Without considering the challenged statements, it is
impossible to know whether the alleged corrective disclosures in fact corrected these
misstatements.

For example, an economist could examine the nature of the

challenged statements to determine whether they reveal information about the
company’s present and future financial condition such that they could be expected

13

to affect its stock price and whether the alleged corrective disclosures are connected
to this information.
Second, the price decline in question must be caused by the correction of the
alleged misstatement and separated from any declines attributable to other
confounding factors. Economists typically use an “event study” to measure a
company’s stock price reaction to new information. 8 An event study can be used to
remove the effects of market and industry factors from stock price changes.
However, an event study does not automatically separate the price effects of
company-specific information related to any alleged misstatements from stock price
changes caused by other company-specific information disclosed at the same time
that are unrelated to the alleged misstatements, i.e., confounding information.
Furthermore, isolating the impact of confounding information is particularly
important in a litigation setting that focuses on analysis of a single event at a single
firm, because confounding information cannot be assumed to average out or be
controlled for as in traditional, multi-event academic studies. 9 Thus, if more than
one piece of company-specific information is disclosed on a particular day, an
An event study uses a regression analysis to examine whether a company’s
stock price changed by more than would be expected based on its relationship with
market and industry indices, and the movements of those indices.
9
See, e.g., Campbell, J., Lo, A., and MacKinlay, A., The Econometrics of
Financial Markets, Princeton University Press, 1997; Fama, E. F., Fisher L., Jensen
C. M., and Roll R., The Adjustment of Stock Prices to New Information, International
Economic Review, 10(1), 1-21.
8

14

economist must isolate the portion of the decline caused by the correction of the
alleged misstatements from the portion caused by confounding events. In order to
do that, an economist must examine the content of all the information released on
the alleged corrective disclosure date(s) and decide what information, if any, relates
to the allegations and what information, if any, is confounding. Then the economist
must isolate the price impact, if any, of the allegation-related information.
Additionally, an economist could examine whether similar alleged corrective
disclosures in the past resulted in a company’s stock price movements.
The bottom line, therefore, is that to assess whether the challenged statements
at issue in a given matter had a price impact, one should examine those statements.
Failing to examine the alleged misstatements and instead simply assuming price
impact given a stock price decline following an alleged corrective disclosure
precludes a full evaluation of whether “the alleged misrepresentation did not actually
effect the stock’s price—that is, [whether] the misrepresentation had no ‘price
impact,’” as described in Halliburton II. See Halliburton II, 573 U.S. at 263-64,
278-79. The Second Circuit’s decision will have a substantial impact on securities
class actions and lower the bar for class certification by permitting class certification
to be granted in the absence of price impact unless this Court intervenes.

15

CONCLUSION
For all the foregoing reasons, the petition for a writ of certiorari should be
granted.
Dated: September 24, 2020

Respectfully submitted.
Michael C. Keats
Counsel of Record
Justin J. Santolli
Jasen T. Fears
Fried, Frank, Harris, Shriver
& Jacobson LLP
One New York Plaza
New York, New York 10004-1980
michael.keats@friedfrank.com
(212) 859-8000
Counsel for Amici Curiae

16

